IN THE SUPREME COURT OF THE UNITED STATES
No. 20DAMIEN FREEMAN,
Petitioner,
v.

LYNEAL WAINWRIGHT,
Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a
Writ of Certiorari contains 6,409 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 9, 2020.

Rishi R. Gupta
Covington & Burling LLP
One CityCenter
850 Tenth Street, NW
Washington, DC 20001
(202) 662-6000
Counsel for Petitioner Damien Freeman

